..J

AFFIDAVIT OF SERVICE
v
SUPREME COURT OF THE UNITED STATES
No. 19X

ARRIS INTERNATIONAL LIMITED,
Petitioner,
v v.
CHANBOND, LLC,
, AND

ANDREI IANCU, UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR OF THE UNITED
STATES PATENT AND TRADEMARK OFFICE

Respondents.
X

STATE OF NEW YORK

)

COUNTY OF NEW YORK )
I, Candice Best, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 25 th day of July, 2019,1 served the within Petition for a Writ of
Certiorari in the above-captioned matter upon:
ChanBond, LLC
Robert A. Whitman
Mishcon De Reya New York LLP
156 Fifth Ave, Suite 904
New York, NY 10010-7003
(212)612-3270
robert.whitman@mishcon.com

RECEIVED
JUL 2 8 2019
OFFICE OF THE OLERK
SUPREME COURT. U.S.

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202)514-2217
supremectbriefs@usdoi.gov
by depositing 3 copies of same, addressed to each individual respectively, and enclosed
in a post-paid, properly addressed wrapper, in an official depository maintained by the
United States Postal Service, via Express Mail.
That on the same date as above, I sent to this Court 40 copies and 1 un-bound copy
of the within Petition for a Writ of Certiorari through the United States Postal Service by
Express Mail, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 25th day of July, 2019.

Candice Best
Sworn to and subscribed before me this 25th day of July, 2019.

tiias Melendez
/_________ _
Notary Public State of New York
No. 24*799661
Qualified in Kings County
Commission Expires Aug. 31, 2021

#289921

0

COUNSEL PRESS
(800) 274-3321 • (800) 359-6859
www.counselpress.com

